DRIVING POSITIVE CHANGE
                          U.S. Department of Health and Human Services
                          Office of Inspector General (OIG)




                          OIG
                          STRATEGIC PLAN
                          2014‒2018
A Message
From the Inspector General
I am very pleased to present the Strategic Plan for Fiscal Years 2014‒2018
of the Office of Inspector General (OIG), Department of Health and Human
Services (HHS). The vision, goals, and priorities outlined in this document
reflect our responsibilities as identified in the Inspector General Act and
represent the collective input and strategic vision of OIG’s workforce.     Daniel R. Levinson
                                                                             Inspector General
The Strategic Plan focuses on our four goals:

       Fight Fraud, Waste, and Abuse
       Promote Quality, Safety, and Value
       Secure the Future
       Advance Excellence and Innovation

OIG provides independent and objective oversight of more than 300 HHS programs, which
represent 24 cents of every Federal dollar spent. For more than 30 years, OIG has consistently
achieved commendable results and significant returns on investment. In FY 2012 alone, OIG’s
efforts resulted in estimated savings and expected recoveries of misspent funds totaling
approximately $15.4 billion. The Health Care Fraud and Abuse Control program, of which OIG
is a key partner, returned more than $7 for every $1 invested. Such results are increasingly
important as the Federal Government works to improve the effectiveness and efficiency of its
operations and to provide services of the highest quality. This Strategic Plan will guide OIG
efforts over the coming years.

The Strategic Plan also highlights key strategies and indicators for attaining and measuring
results. As HHS and the external environment evolve, OIG must also evolve. This plan allows
for flexibility to assess, anticipate, and respond to new challenges and we will update it as
appropriate.

As OIG works ever more effectively toward these goals, I am confident that HHS programs and
taxpayer dollars will be better protected and that the programs will better serve the people who
use them.




Daniel R. Levinson
Inspector General
Mission, Vision, and Values
HHS touches the lives of all Americans through programs that provide health insurance, promote
public health, protect the safety of food and drugs, and fund medical research, among other
activities.

Mission. OIG’s mission is to protect the integrity of HHS programs and the health and
welfare of the people they serve. As established by the Inspector General Act of 1978, OIG is an
independent and objective organization that fights fraud, waste, and abuse and promotes
efficiency, economy, and effectiveness in HHS programs and operations. We work to ensure
that Federal dollars are used appropriately and that HHS programs well serve the people who use
them.

Vision. Our vision is to drive positive change in HHS programs and in the lives of the people
served by these programs. We pursue this vision through independent oversight of HHS
programs and operations and by providing HHS and Congress with objective and reliable
information for use in policymaking. We assess the Department’s performance, administrative
operations, and financial stewardship. We evaluate risks to HHS programs and the people they
serve, and recommend improvements. The law enforcement component of OIG investigates
fraud and abuse against HHS programs and holds wrongdoers accountable for their actions.

Values. OIG strives to be relevant, impactful, customer-focused, and innovative. We apply
these values to our work in order to persuade others to take action by changing rules, policies,
and behaviors to improve HHS programs and operations. OIG strives to serve as a model for
good government. Of key importance is engagement with our stakeholders―Congress, HHS,
health and human services professionals, and consumers―to understand their needs, challenges,
and interests in order to develop and identify areas for closer scrutiny and offer recommendations
for improvement. We do this throughout the year, but most visibly through the development of
our annual Work Plan and HHS’s Top Management and Performance Challenges. The goals,
priorities, and strategies in these documents reflect our ongoing stakeholder engagement and our
assessment of the input we receive.




                                                  1
OIG’s Strategic Plan at a Glance

                                   Our Mission
 Protect the integrity of Department of Health and Human Services programs and
          operations and the health and welfare of the people they serve.


                                        Our Vision
                                   Drive positive change.


                                     Our Values
                     Relevance, Impact, Customer-focus, Innovation.

                                          Our Goals

Fight Fraud,             Promote Quality,                                Advance
Waste, and Abuse                                    Secure the Future    Excellence and
                         Safety, and Value
                                                                         Innovation


                                         Our Priorities

• Identify,               • Foster high             • Foster sound        • Recruit, retain,
  investigate, and          quality of care           financial             and empower a
  take action                                         stewardship and       diverse work
  when needed             • Promote public            reduction of          force
                            safety                    improper
• Hold                                                payments            • Leverage
  wrongdoers              • Maximize value            (misspent funds)      leading-edge
  accountable and           by improving                                    tools and
  maximize                  efficiency and          • Support a high-       technology
  recovery of               effectiveness             performing
  public funds                                        health care         • Promote
                                                      system                leadership,
• Prevent and                                                               vision, and
  deter fraud,                                      • Promote the           expertise
  waste, and                                          secure and
  abuse                                               effective use of
                                                      data and
                                                      technology
                                                2
Goals, Priorities, and Strategies
OIG’s goals and priorities reflect the positive changes toward which we strive. Accompanying
each priority listed below are illustrative strategies and indicators, as well as examples of OIG’s
work to improve HHS programs and ensure the health and safety of the people served by them.




Goal One: Fight Fraud, Waste, and
Abuse
Critical to OIG’s mission is fighting fraud, waste, and abuse. We will continue to employ a
multi-faceted approach of prevention, detection, and deterrence.

Priority: Identify, investigate, and take action when needed
               Strategy. OIG uses data analysis and risk assessments of emerging issues to identify
               suspected fraud, waste, and abuse and deploy our oversight and enforcement resources.
               Our investigations result in criminal convictions and penalties, civil settlements, and
               administrative actions against those who commit fraud. Updates on OIG’s enforcement
               actions are available on our website. Looking ahead, we will build on successful
               enforcement models such as the Medicare Fraud Strike Force teams to enhance our
               enforcement results in other HHS programs. Key focus areas include: Medicare and
               Medicaid program integrity and waste in HHS programs. We will also continue
               implementing and refining protocols for self-disclosure of wrongdoing.

Priority: Hold wrongdoers accountable and maximize recovery of public
funds
               Strategy. OIG partners with the Department of Justice (DOJ) and HHS on Medicare
               Fraud Strike Force teams and other health care fraud enforcement activities through the
               Health Care Fraud and Abuse Control (HCFAC) program. On average, the HCFAC
               program recovers more than $7 for every $1 invested and protects programs through
               nonmonetary results, such as criminal convictions and exclusions of providers from
               participation in Federal health care programs. The latest HCFAC results are available in
               the annual HCFAC Report to Congress. We will continue to pursue all appropriate
               means to hold fraud perpetrators accountable and to recover stolen or misspent HHS
               funds. Key focus areas include: identifying and recovering improper payments and
               utilizing exclusions and referrals for debarment to protect HHS programs and
               beneficiaries.

Priority: Prevent and deter fraud, waste, and abuse
               Strategy. OIG identifies fraud, waste, and abuse vulnerabilities in HHS programs and
               operations and advises HHS program administrators and policymakers on how to

                                                    3
              implement effective safeguards. For example, our recommendations for strengthening
              HHS program administration and grants management and our grant fraud prevention
              training for HHS are summarized on our website. We also educate health care providers
              and provide them tools to help prevent fraud and abuse; these tools are available on our
              website. Looking ahead, we will apply the lessons we
              have learned about fraud vulnerabilities and effective
              prevention to HHS’s new and evolving programs. Key
                                                                                     Key Indicators
              focus areas include: promoting compliance with Federal                 OIG uses a variety of
              requirements and resolving noncompliance; advising HHS                 qualitative and
              on key safeguards to prevent fraud, waste, and abuse, and              quantitative indicators to
              assessing whether providers and suppliers, grantees, and
                                                                                     monitor, manage, and
              others are qualified to participate in Government
              programs.                                                              report on our progress
                                                                                     toward our goals.

Goal Two: Promote
                                                                                     Indicators include:

                                                                                      •   Monetary return on

Quality, Safety, and Value                                                            •
                                                                                          investment
                                                                                           Cost savings
                                                                                      •   Individuals and
HHS programs touch the lives of all Americans. OIG is committed                           entities held
to promoting quality of care and public safety in those programs and                      accountable through
maximizing the value of Federal dollars invested.                                         criminal, civil, and
                                                                                          administrative
Priority: Foster high quality of care                                                     enforcement actions
              Strategy. OIG will continue to evaluate and recommend                   •   Recommendations
              improvements to the systems intended to promote quality                     accepted and
              of care, exemplified by our series of reviews of adverse                    implemented
              events (patient harm resulting from medical care),
                                                                                      •   Fraud prevention and
              available on our website. We will also investigate and
              refer for prosecution cases involving abuse or grossly                      patient safety tools
              deficient care of Medicare or Medicaid patients. Looking                    utilized
              ahead, OIG plans to expand our portfolio of work on                     •   Data trends
              quality of care. Key focus areas include: promoting                     •   Timeliness of reports
              quality of care in nursing facilities and home- and
                                                                                      •   Advisory opinion
              community-based settings, access to and use of preventive
              care, and quality improvement programs.                                     requests resolved
                                                                                      •   Expected financial
Priority: Promote public safety                                                           recoveries from
                                                                                          investigations and
              Strategy. OIG recommends improvements to HHS
                                                                                          audits
              programs to ensure adequate emergency preparedness and
              response; to protect the safety of food, drugs, and medical              •  Congressional
              devices (summarized on our website); and to ensure that                     testimonies
              their grantees (e.g., Head Start and child care providers)
              meet safety standards. OIG will continue to prioritize
              fraud investigations that have public safety as well as financial implications and to look
              for comprehensive solutions. For example, we will continue to investigate prescription
              drug fraud cases and plan to work with leadership across HHS operating divisions to
              identify systemic solutions for this problem.

                                                     4
Priority: Maximize value by improving efficiency and effectiveness
               Strategy. OIG’s findings and recommendations promote efficiency and effectiveness in
               specific programs and across HHS. We also work to ensure that HHS programs do not
               overpay for services or products relative to their value in the marketplace―for examples,
               see our “Spotlight on Bad Bargains.” Looking ahead, OIG also plans to assess programs
               intended to achieve value through care coordination and new ways of delivering and
               paying for care, as well as the reliability and integrity of quality, outcomes, and
               performance data.


Goal Three: Secure the Future
OIG will continue to address program and operational vulnerabilities that affect the long-term
health and viability of HHS programs.

Priority: Foster sound financial stewardship and reduction of improper
payments
               Strategy. OIG reviews HHS’s annual financial statement audits and error rate reports.
               We also conduct targeted reviews to identify improper payments to be recovered and
               recommend management improvements to systemic weaknesses that contribute to
               improper payments. For example, our series of hospital audits (available on our website)
               identified common billing and payment errors and recommended fixes and recoveries of
               funds that were overbilled to the Government (overpayments). Looking ahead, OIG will
               continue to prioritize work on billing and payment errors by providers, effective program
               administration and contract oversight, and inefficiencies that result in wasteful spending.

Priority: Support a high-performing health care system
               Strategy. OIG is working to support a high-performing health care system to foster
               better health outcomes and lower costs. OIG’s efforts include promoting quality,
               coordination, and efficiency. We provide technical assistance on safeguards to protect
               new and changing systems and programs from fraud, waste, and abuse. As HHS
               manages the transition to payments based on value rather than volume, we plan to
               conduct reviews and recommend changes to maximize overall value, protect program
               integrity, and foster value and high performance.

Priority: Promote the secure and effective use of data and technology
               Strategy. Data and technology promise to drive improvements in health care and human
               services at lower costs. OIG will continue to advise program administrators and
               policymakers on promoting the secure and effective use of data and technology. OIG’s
               work in this area is summarized on our website. Looking ahead, key focus areas include:
               the accuracy and completeness of program data (e.g., Medicaid data), the privacy and
               security of personally identifiable information, and the security and integrity of electronic
               health records.




                                                      5
Goal Four: Advance Excellence and
Innovation
OIG strives to advance excellence and innovation in our own organization and operations.

Priority: Recruit, retain, and empower a diverse workforce
              Strategy. OIG achieves its mission through its workforce. To identify, understand, and
              address the challenges facing HHS, we will continue to invest in our workforce by
              recruiting and retaining talented employees and by maintaining workforce excellence and
              the highest standards of professional conduct. We will foster a work environment that
              enhances productivity, innovation, excellence, and employee satisfaction and will
              cultivate a culture of continuous improvement. More information about careers at OIG is
              available on our website.

Priority: Leverage leading-edge tools and technology
              Strategy. OIG maximizes the returns on our investments by leveraging data analytics
              and technology to inform our decisions about where to best direct our resources. For
              example, analysis of Medicare billing patterns has guided our decisions about where to
              deploy Medicare Fraud Strike Force teams and data analysis helps us to uncover fraud
              and conspiracies in specific cases, such as those highlighted in our Semiannual Report to
              Congress. Looking ahead, we will continue to use the best data, analytic tools, and
              technologies available to maximize the impact of our work.

Priority: Promote leadership, vision, and expertise
              Strategy. In an evolving health and human services landscape, OIG focuses on building
              leadership and expertise to drive positive change. Our multidisciplinary approach affords
              us a range of tools to develop sound and innovative solutions. More information about
              OIG’s multidisciplinary workforce is available on our website. As HHS programs,
              technology, and the environment change, embracing innovation will help us maintain
              relevance and achieve impact.




                                                    6
OIG Drives Positive Change
In pursuit of our goals and priorities, we employ strategies to drive positive change. These
strategies flow from our core values―relevance, impact, customer-focus, and innovation. OIG
uses a variety of indicators to monitor, manage, and report on our progress toward our goals.


                          We Advance Our Goals
Fight Fraud, Waste,       Promote Quality,                               Advance Excellence
                                                    Secure the Future
    and Abuse             Safety, and Value                               and Innovation




                             Through Our Values
     Relevance                 Impact               Customer-focus            Innovation
                                 And Strategies
• Conduct risk           • Follow up on         • Identify stakeholder   • Leverage cutting-
  assessments and          recommendations        priorities and needs     edge technology
  identify emerging      • Partner with         • Target education         and data
  issues to prioritize     stakeholders           and promote            • Foster creativity and
  work                                            compliance               innovative solutions
• Use timely data and
  cutting-edge
  methods




                              To Achieve Results
 Programs Operate Effectively and                    Dollars are Well Spent
 Efficiently and Serve People Well                   • Return on investment
 • Recommendations accepted and                      • Reductions in improper payments
   implemented                                       • Taxpayer investments protected
 • Fraud prevention and patient-safety tools
   utilized
 • Individuals and entities that commit fraud
   held accountable

                                                7
OIG – Who we are
OIG provides independent and objective oversight that promotes economy, efficiency, and effectiveness
in the programs and operations of HHS. OIG’s program integrity and oversight activities are shaped by
legislative and budgetary requirements and adhere to professional standards established by the
Government Accountability Office (GAO), DOJ, and the Inspector General community. OIG carries out
our mission to protect the integrity of HHS programs and the health and welfare of the people served by
those programs through a nationwide network of audits, investigations, and evaluations conducted by the
following operating components with assistance from OIG counsel and management.

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS either by conducting our own audits or by
overseeing audit work done by others. Audits examine the performance of HHS programs and/or its grantees and
contractors in carrying out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and mismanagement; identify misspent
funds for recovery; and promote economy and efficiency throughout HHS.


Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and misconduct
related to HHS programs, operations, and beneficiaries. OI actively coordinates with DOJ and other Federal, State,
and local law enforcement authorities. OI’s investigations often lead to criminal convictions, administrative
sanctions, exclusions from participation in Federal health care programs, and/or civil monetary penalties.


Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress, and the
public with timely, useful, and reliable information on significant issues. These evaluations focus on preventing
fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of HHS programs. To promote impact,
OEI reports also present practical recommendations for improving program operations.


Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering advice and
opinions on HHS programs and operations and providing all legal support for OIG’s internal operations. OCIG
represents OIG in all civil and administrative fraud and abuse cases involving HHS programs, including False
Claims Act, program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG also
negotiates and monitors corporate integrity agreements. OCIG renders advisory opinions, issues guidance for
complying with Federal requirements, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.


Executive Management
Executive Management (EM) is composed of the Immediate Office of the Inspector General and the Office of
Management and Policy. EM is responsible for overseeing the activities of OIG’s components; setting vision and
direction, in collaboration with the components, for OIG’s priorities and strategic planning; ensuring effective
management of budget, finance, IT, human resources, and other operations; and serving as a liaison with HHS,
Congress, and other stakeholders. EM plans, conducts, and participates in a variety of cooperative projects within
HHS and with other Government agencies.


                                                            8
Want to learn more about…
Our budget?
OIG’s Congressional Budget Justification presents our resource requirements and planned
activities for the forthcoming fiscal year, and reports on recent financial and programmatic
results.

Our plans for future work?
OIG’s Work Plan sets forth various projects to be addressed during the fiscal year. OIG
conducts risk assessments and engages stakeholders to identify the issues with the greatest
potential impact on HHS programs and the people they serve. Throughout the year, OIG
responds to emerging issues and makes adjustments to our plans and enforcement efforts.

Our recommendations?
OIG summarizes significant monetary and nonmonetary recommendations that, when
implemented, will result in cost savings and/or improvements in program efficiency and
effectiveness.

The top challenges facing HHS?
OIG’s Top Management and Performance Challenges identifies and assesses progress in
addressing HHS’s most significant management and performance challenges.

What we are reporting to Congress?
OIG’s Semiannual Report to Congress communicates the impact of our efforts (e.g., significant
findings and recommendations; criminal, civil, and administrative enforcement actions; expected
recoveries from audits and investigations) during the previous 6-month period.

How to report fraud?
The OIG hotline accepts tips and complaints from all sources about fraud in HHS programs.


                                 http://oig.hhs.gov/
